U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Carlos Concepcion v. United States of America,
S.Ct. No. 20-1650
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 24,
2021, and placed on the docket on May 26, 2021. The government’s response is due on June 25,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1650
CONCEPCION, CARLOS
USA

LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
202-434-5050
LBLATT@WC.COM
J. MARTIN RICHEY
FEDERAL DEFENDER OFFICE
51 SLEEPER STREET
5TH FLOOR
BOSTON, MA 02210
617-223-8061

